No. 20-5363

In the Supreme Court of the United States
REGINALD JONES,
v.

Petitioner

STATE OF LOUISIANA,
Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE LOUISIANA COURT OF APPEAL, FOURTH CIRCUIT

PROOF OF SERVICE
Undersigned counsel certifies that, under Supreme Court Rule 29.3, the Brief
in Response was served on each party, or that party’s counsel, as listed below, on
November 18, 2020. Service was made by United States mail—with first-class
postage prepaid.
Reginald Jones, #399320
Dixon Correctional Institution
Jackson, LA 70748-0788
I declare under penalty of perjury that the following is true and correct.
Executed on November 18, 2020.
/s/ Elizabeth Baker Murrill
ELIZABETH BAKER MURRILL

